                                                                                                                        G   P   O   ’



                                                                  Ask The CIO




WASH GPO’s Chief Information Officer




ure that digital documents remain accessible to the public as formats
change?
 es over time exposes a number of challenges — particularly finding a way to
                                                                                               G P O ’s F e d e r
 dia and converting files to make them usable in today’s and future applications.
 obably eternal — challenge is the rapidly evolving and changing world of
                                                                                                  N ew s ys t em will mak
mats.
cesses come in three forms: refresh, migration, and emulation. Refresh is the                     As a GPO customer, you interact wit
ading a file, verifying that it is still readable and then re-writing it. Migration is            N  Creating   digital documents for GP
 d formats to a new format — for example, moving Office 2003 documents to
                                                                                                  N  Tracking   those documents throug
 on is a bit more abstract — creating an operating environment similar to the
                                                                                                  N  Providing   public access to many o
sted when the file was created. An example of this would be emulating an early
 ating environment to read WordStar documents.                                                    Currently, you use a variety of metho
 use a mix of these methods depending on the file type and circumstances.                         jobs and find the information you nee
 n will probably be used most often. •


                                                                                                  What is FDsys?
                                                                                                  FDsys is an advanced digital content
                                                                                                  system that will enable GPO to mana
                                                                                                  Government documents. Some of the
                                 Mike Wash Chief Information Officer                              functions include:
                                 Scott Stovall Director of Programs and Technology
                                                                                                  N  Publishingdocuments — The U.S
                                     Brenda Washington Administrative Support
                                                                                                    and other agencies will be able to
                                 Communications
                                     Carrie Gibb Program Communications
                                                                                                    and orders electronically to GPO f
                                     Moira Shea Program Communications                              electronic distribution, and inclus
                                 Technology
                                                                                                    Federal Depository Library Progra
                                     Deng Wu Lead Innovation Specialist                           N  Searching    for information — Fede
                           United George
                                   StatesBarnum
                                           Government        Printing
                                                Content System Manager Office | Office of Inspector General
                                                                                                 information will reach a wider aud


                           Semiannual Report
                                 Kirk Knoll PMO Associate Director                                  providing authentic, published Go
                                    Matt Landgraf Lead Program Planner
                                                                                                    information to the public;
                                    Adam Schwartz Program Planner



                           to Congress
                                    Magan Mohrmann Program Planner                                N  Preserving information — The pre
                                 Gil Baldwin PMO Associate Director                                 function of FDsys will ensure pub
                                     Kate Zwaard Program Planner                                    information even as technology ch
                                     Elizabeth Pruszko Program Planner
                           October 1, 2007 through March 31, 2008
                                 Selene Dalecky PMO Associate Director
                                    Lisa LaPlant Lead Program Planner
                                    Kirk Petri Program Planner
                                    Blake Edwards Program Planner

                                 Contact Information pmo@gpo.gov
                                 http://www.gpo.gov/projects/fdsys.htm
                                 202.512.1080
The U.S. Government Printing Office                             The Office of Inspector General

For well over a century, the U.S. Government Printing Office    The Office of Inspector General (OIG) was created by
(GPO) has been fulfilling the needs of the Federal Govern-      the GPO Inspector General Act of 1988—title II of Pub-
ment for information products and distributing those prod-      lic Law 100-504 (October 18, 1988). The OIG at GPO
ucts to the public. GPO is the Federal Government’s primary     provides leadership and coordination as well as eval-
resource for gathering, cataloging, producing, providing,       uates GPO’s internal control structure. It recommends
authenticating, and preserving published U.S. Government        policies, processes, and procedures that help prevent
information in all its forms. GPO also produces and distrib-    and detect fraud, waste, abuse, and mismanagement.
utes information products and services for each of the three    The OIG also recommends policies that will promote
branches of Government.                                         economy, efficiency, and effectiveness in GPO pro-
      Under the Federal Depository Library Program, GPO         grams and operations.
distributes a wide range of Government publications in                The OIG is dedicated to acting as an agent of pos-
print and online to more than 1,250 public, academic, law,      itive change—changes that will help GPO improve its
and other libraries across the country. In addition to dis-     efficiency and effectiveness as the Agency undertakes an
tributing publications through that library system, GPO         era of unprecedented transformation. Along with keep-
provides access to official Federal Government informa-         ing the Public Printer and Congress fully informed about
tion through public sales and other programs, and—most          problems and deficiencies, the OIG provides an inde-
prominently—by posting more than a quarter of a million         pendent and objective way of relating to administra-
titles online through GPO Access (www.gpoaccess.gov).           tion and operations of the Agency. To accomplish that,
      Today about half of all Federal Government docu-          the OIG conducts audits, assessments, investigations,
ments begin as digital products and are published directly      inspections, and other reviews.
to the Internet. Such an evolution of creating and dissem-
inating information challenges GPO, but it has met those
challenges by transforming itself from primarily a print for-
mat entity to an agency ready, willing, and able to deliver
a high volume of information to a multitude of customers
from a digital platform.
      Although a transition to digital technology changes
the way products and services are created and offered, GPO
strives to continually satisfy the requirements of Government
and accomplish its mission of Keeping America Informed.




     The OIG is dedicated to acting as an agent of positive change
     to help the GPO improve its efficiency and effectiveness as it
     undertakes its era of unprecedented transformation.
Contents

Message from the Inspector General .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

Highlights of this Semiannual Report .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4

OIG Management Initiatives . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4

Executive Council on Integrity and Efficiency .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

Review of Legislation and Regulations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

GPO Management Challenges .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

Office of Audits and Inspections .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
            A.Summary of Audit and Inspection Activity  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
            B. Audit Accomplishments—Audit and Inspection Reports . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
            C. TeamMate Audit Software Implementation .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 16
            D. Future Digital System (FDSys)—Independent Verification and Validation .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17
            E. Status of Open Recommendations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17

Office of Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
            A. Summary of Investigative Activity .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
            B. Types of Cases .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
            C. Status of Action on Referrals . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
            D. Investigative Accomplishments .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 22
            E. Work-In-Progress .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 22

Appendices
            A. Glossary and Acronyms .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 24–25
            B. Inspector General Act Reporting Requirements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 26
            C. Statistical Tables
                         Table C-1: Audit Reports With Questioned and Unsupported Costs . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27
                         Table C-2: Audit Reports With Recommendations
                                                    that Funds Be Put to Better Use .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28
                         Table C-3: List of Audit and Inspection Reports Issued During
                                                    Reporting Period  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29
                         Table C-4: Investigations Case Summary .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 30
                         Table C-5: Investigations Productivity Summary . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 32




                                                                                                      Office of Inspector General
                                                                                                                                                  1
Semiannual Report to Congress
             2
Message from the Inspector General




                            D
                                       uring this reporting period, the Government Printing Office (GPO)
                                       Office of Inspector General (OIG) continued its focus on critical Agency
                                       operations such as passport production, the implementation of Oracle
                             business products, and the Future Digital System (FDsys)— programs fun-
                             damental to GPO’s success. We continue to make critical programs a priority
                             as project management challenges are inherent in highly technology-driven
                             efforts. Working with management to identify risks and vulnerabilities early
                             on will hopefully help the agency avoid serious problems.
                                   Last fall, the Government Accountablity Office (GAO) reported at least 227 IT
                             projects valued at approximately $10.4 billion in fiscal year 2008 as being poorly
planned, poorly performing, or both.1 While GPO’s programs are not among the list, the GAO report reminds
us of the importance of effective project management and its integral role in successful capital acquisition.
Our office will continue to focus on these issues and work with management in facilitating an enterprise
approach to address our recommendations.
      The OIG remains committed to the integrity, accountability, efficiency, and effectiveness of GPO pro-
grams and operations and our audits, inspections, investigations, and other activities highlighted in this
report demonstrate such an ongoing commitment. The Office of Audits and Inspections (OAI) continued
its focus on several important technology initiatives critical to the ongoing operations of GPO. Those ini-
tiatives included a network vulnerability assessment, review of the passport production operating system,
and Independent Verification and Validation (IV&V) of the Agency’s FDsys. In addition to those projects,
OAI oversaw the annual financial statement audit of GPO as well as completed its review of the new secure
printing facility for passport production in Mississippi.
      Our Office of Investigations continued with its efforts to not only combat workers’ compensation fraud but
contract and procurement fraud as well. Those efforts were recognized at the highest level when the President’s
and Executive Councils on Integrity and Efficiency recognized Special Agents Sonja Scott and Hugh Coughlin
with Awards for Excellence. I am proud of their efforts and contribution to the OIG at GPO.
      Our dedicated staff will continue to promote efficiency, and combat waste and fraud, and we look for-
ward to working with management in this endeavor.




                                                                       J. Anthony Ogden
                                                                       INSPECTOR GENERAL
                                                                       U.S. Government Printing Office




1  Government Accountability Office, “Information Technology: Further Improvements Needed to Identify and
Oversee Poorly Planned and Performing Projects,” GAO-07-1211T.

                                     Office of Inspector General
                                                       3
Highlights of this                                               November 2007, the Chairman of the Subcommittee
Semiannual Report                                                on Federal Workforce, Postal Service, and the District
                                                                 of Columbia of the House Committee on Oversight and
During this reporting period, the OIG continued                  Government Reform requested a review of diversity
directing its resources toward those areas of great-             offices throughout agencies of the legislative branch. As
est risk within GPO. We provided a variety of services,          a result of meetings with the Subcommittee’s staff, the
including program and financial audits, inspections              OAI will conduct an audit of GPO’s Equal Employment
and assessments of key operations, and investigative             Opportunity Office to assess how diversity programs
activity resulting in criminal or administrative actions.        are yielding desired results, the accuracy of the dispute
We also consulted on a variety of Agency issues and              and discrimination data being reported to Congress, and
provided comments on proposed legislation and reg-               whether the diversity offices are sufficiently indepen-
ulations. The work of each of the OIG components is              dent of the agency’s general counsel and agency head.
summarized below.                                                We expect to conclude this audit by late June.
      The Office of Audits and Inspections (OAI) issued 6              In December 2007, the Committee on Oversight
reports with a total of 35 recommendations for improving         and Government Reform requested a list of outstand-
GPO operations, including strengthening internal con-            ing recommendations the OIG made to the Agency since
trols throughout the Agency. OAI also continued working          January 1, 2001. In January 2008, the OIG responded
with management to close recommendations from earlier            to the request. And in March 2008, the Chairman of
reporting periods.                                               the House Committee on Energy and Commerce and
      The Office of Investigations (OI) opened 17 new            the Chairman of the Subcommittee on Oversight and
investigative cases in response to 417 complaints or             Investigations requested OIG assistance in conducting a
allegations and closed 21 matters. Through its inves-            review of matters relating to the management and secu-
tigative efforts during this period, GPO may realize             rity of the e‑Passport supply and production chain. That
a future savings $44,800 a year ($448,000 in actuary             project is ongoing.
amount over 10 years) if the subject of an Office of                   OALC also acted on a variety of matters as the OIG
Workers’ Compensation fraud investigation is taken               liaison to the GPO General Counsel, including support
off the rolls. Management responded to a Management              with GPO litigation matters, and the GPO Office of the
Implication Report (MIR) concerning shipping and                 Chief of Staff. Finally, OALC participated in the Council of
storage procedures of a security material used to cre-           Counsels to the Inspector General (CCIG) and is coordi-
ate passports. As a result of damaged shipments, the             nating the development, with the GPO Web Development
OIG recommended strengthening security and storage               and Creative Services Division, of an informational Web
procedures for the material. OI is also currently inves-         site for the CCIG.
tigating two criminal matters.
      The Office of Administration/Legal Counsel (OALC)
provides legal advice and counsel on issues arising dur-         OIG Management Initiatives
ing audits, inspections, and investigations, including
opinions regarding legal accuracy and sufficiency of             Personnel Update
OIG reports. OALC manages administrative and man-                After significant discussions regarding the relative pay of
agement issues that the OIG faces as well as congres-            OIG criminal investigators in relation to other OIG offices
sional and media relations and information requests.             throughout the Federal Government, the Agency agreed
During this reporting period, OALC reviewed several              to provide Law Enforcement Availability Pay (LEAP) to
audit and investigative reports, an administrative sub-          OIG criminal investigators, effective the first pay period
poena, a request for mail cover, and assisted OI with sev-       of the calendar year. OALC worked with the Agency to
eral matters that the Department of Justice accepted for         develop and implement a directive for LEAP.
civil and criminal prosecution. OALC also reviewed three              The OIG community recognized two of our special
Agency directives.                                               agents during this reporting period. At the President’s
      OALC helped coordinate responses to three con-             and Executive Council on Integrity and Efficiency (PCIE/
gressional requests for information or assistance. In            ECIE) Awards Ceremony on October 27, 2007, Senior


                                      Semiannual Report to Congress
                                                             4
Special Agent Sonja L. Scott received an Investigative             the Subcommittee on Federal Workforce, Postal Service,
Award of Excellence for her investigation of two sepa-             and the District of Columbia of the House Committee on
rate incidents involving workers’ compensation fraud. In           Oversight and Government Reform, regarding the request
one case, the Office of Workers’ Compensation Program              for a review of all legislative branch agencies’ diversity
(OWCP) of the Department of Labor issued a recovery                offices. Quarterly meetings continue to rotate among the
notice to the claimant to repay GPO $947,000 received              IG offices of the legislative branch. Updates and the prog-
over 30 years, one of the largest in the history of the OWCP       ress of those meetings will be provided to Congress in our
program. The other matter resulted in the individual               respective semiannual reports.
pleading guilty to workers’ compensation fraud with an
order to repay $386,000 to the Agency.
      Senior Special Agents Hugh D. Coughlin and                   Review of Legislation
Walter B. Martin IV (currently employed by the Defense             and Regulations
Criminal Investigative Service) were also awarded the
Investigative Award for Excellence for their investigation         The OIG, in fulfilling its obligations under the IG Act,
of two Government employees complicit in the system-               reviews existing and proposed legislation and regula-
atic theft of more than 4,000 print cartridges, valued in          tions relating to programs and operations of GPO. It then
excess of $110,000, from GPO and selling or pawning the            makes recommendations in each semiannual report on
equipment for personal profit. The employees pled guilty           the impact of such legislation or regulations on the econ-
to theft of Government property, were ordered to make              omy and efficiency of programs and operations adminis-
restitution in excess of $110,000, and one was sentenced           tered or financed by GPO. In an effort to assist the Agency
to five months in jail while the other was sentenced to            in achieving its goals, we will continue to play an active
two years of probation.                                            role in that area.
                                                                         During this reporting period, OALC reviewed three
                                                                   Agency directives. First, OALC reviewed and updated
Executive Council on Integrity                                     the Agency’s directive on its Program to End Waste,
and Efficiency                                                     Fraud, and Abuse in GPO Programs and Operations,
                                                                   which, among other things, details the role and respon-
The PCIE and ECIE were both established by Executive               sibilities of the IG, the Public Printer, and GPO employ-
Order to coordinate and enhance governmental efforts,              ees in combating waste, fraud, and abuse. OALC also
to promote integrity and efficiency, and to detect and             reviewed and provided comments on an Agency draft
prevent fraud, waste, and abuse in Federal programs.               directive on Information Security Forensics Program,
The PCIE comprises 32 Inspectors General (IGs) that the            which delineates Agency responsibility regarding pres-
President appoints, and the ECIE comprises 35 IGs that             ervation of electronically stored information. Finally,
agency directors appoint. The OIG at GPO is a member               OALC helped develop and implement the Agency’s new
of the ECIE and participates regularly in its activities.          directive on LEAP for OIG criminal investigators.
      In ongoing response to the Senate Appropriations                   The OIG continued discussions with management
Committee request that the legislative branch IGs com-             regarding the process for establishing, updating, and
municate, cooperate, and coordinate with each other on             communicating GPO directives to Agency employees.
an informal basis, the legislative branch IGs continued            The OIG again urged management to update several
to meet on a quarterly basis. The meetings continue to             directives, including the directive regarding the GPO
improve communications and contact between the leg-                workers’ compensation program.
islative branch IGs. During this reporting period, the leg-              Although there were no legislative proposals relat-
islative branch IGs provided comments regarding legisla-           ing to GPO programs and operations, as the legislative
tion to amend the Inspector General Act of 1978 (IG Act) in        branch member of the ECIE Legislative Committee, the
an effort to aid committee staff understanding of distinc-         IG provided comments to the committee on bills that
tions with executive branch IGs. In addition, legislative          would amend the IG Act. The comments focused on how
branch IGs coordinated a response and developed a com-             the proposed amendments would affect the legislative
prehensive plan to address the request of the Chairman of          branch IGs.


                                           Office of Inspector General
                                                               5
Semiannual Report to Congress
             6
GPO Management Challenges                                        Our update of management
                                                                 challenges follows:


G
          PO is well into its transformation, having estab-
          lished several key initiatives that will help the     1. Strategic Planning. As previously noted, to realize and
          Agency meet its mission in the ever-changing          sustain the GPO Vision, each individual business unit
digital environment. Substantial and challenging risks          within the Agency must develop and implement its own
that could affect successful implementation of the pro-         clear and succinct strategic plan that aligns with the GPO
grams and initiatives will continue. In our April 2007          blueprint, A Strategic Vision for the 21st Century. We have
Semiannual Report to Congress, the OIG provided man-            urged that business units develop plans that cascade
agement a list of issues we identified as most likely to        goals and objectives from the Agency’s plan to achieve
hamper the Agency’s efforts if not addressed with ele-          employee buy-in and keep transformation efforts on
vated levels of attention and resources. We update the          track. In the absence of clearly articulated plans, senior
management challenges in this report and will provide           management cannot easily determine whether the busi-
updates in future reports.                                      ness units are working together toward a common goal.
     We continue to note the issue of a new facility for              During this reporting period, the GPO Quality
GPO. As previously reported, management has main-               Assurance Office made strides in their efforts for imple-
tained for years that the current GPO facility is too           menting provisions of the Government Performance
large and antiquated and                                                                        and Results Act (GPRA).
requ i res a n ex t raord i-                                                                    Although not required to
nary amount of financial                                                                        follow all the mandates of
resources to operate and               GPO’s Top 10                                             GPRA, Congress has urged
maintain. Estimates for                Management Challenges                                    GPO to embrace its tenets.
building upkeep during                 	 1.	 Strategic Planning.                                The Qualit y Assurance
FY 2008 exceed $35 million.            	 2.	 Management of Human Capital.                       Office helped the Agency
The Agency proposed to                 	 3.	 Improved Financial Management.                     ident if y specif ic goa ls,
Congress a plan for relocat-                                                                    objectives for each goal,
                                       	 4.	 Continuity of Operations.
ing to new facilities specifi-                                                                  and ways for measuring
                                       	 5.	 Internal Controls.
cally sized and equipped                                                                        success t hrough devel-
for future requirements                	 6.	 Security and Intelligent                           opment of w hat GPR A
and more effectively able              		 Documents.                                            refers to as a Balanced
to meet the needs of its cus-          	 7.	 Supporting Congressional Printing.                 Scorecard. Moreover, work
tomers. Although the chal-             	 8.	Information Technology and                         is nearly complete on GPO’s
lenges associated with such                  Systems (IT&S) Management.                         Strategic Performance Plan
a move will be significant             	 9.	 Customer Service.                                  and Achievements, which
for the Agency, Congress               	10.	 Acquisitions.                                      highlights Agency goals,
must still approve any relo-                                                                    objectives, performance in
cation of GPO operations.                                                                       achieving those goals, and
Members of Congress have                                                                        key achievements. GPO
expressed interest in the issue and urged that the Agency       is also developing strategic plans for each business unit
continue its efforts toward approval. Limited movement          and incorporating Agency goals into each business unit’s
in this regard has, however, taken place. The OIG has           Balanced Scorecard to ensure work toward common goals
planned a review of the proposed move to ensure that            and advance the Agency’s Strategic Vision. We are encour-
plans are based on supported and documented economic            aged that management made strategic planning a priority.
assumptions and the Government’s future interests are           Continued progress will help transformation efforts to stay
adequately protected. The information reviewed thus             on track during this critical transition time.
far supports significant cost savings. The OIG, there-
fore, encourages management to continue making the              2. Management of Human Capital. We previously
matter a priority.                                              highlighted challenges GPO faces in “rightsizing” its


                                          Office of Inspector General
                                                             7
workforce while at the same time attracting employ-               and customer technology requirements for products and
ees with the right skill sets for the new GPO. The Chief          services. To oversee and support such a complex effort, the
Human Capital Officer will continue to confront signif-           GPO Oracle Program was created. Although investment in
icant issues related to transformation of the GPO work-           the integrated system presents opportunities for enhanced
force and must advance creative solutions that will               efficiency and cost savings, such an investment brings with
help the Agency meet its ongoing workforce needs, in              it significant risk in the event the system does not meet user
part by building a diverse, qualified applicant pool.             requirements. GPO must implement the program on time,
      Recognizing passport production as a priority,              within budget, and with a satisfactory result.
Human Capital must continue to tackle current and                       The OIG contracted Independent Verification and
ongoing needs of plant operations so a reliable workforce         Validation (IV&V) activities for two early implementa-
is in place that can not only meet security requirements          tion projects related to implementation of the Oracle
but also understand the need in the passport production           E‑Business suite. IV&V provides GPO with an indepen-
facility for strict quality assurance and compliance. We          dent assessment of project status, satisfaction of user
previously reported that workforce issues affecting plant         needs, and project cost effectiveness. The IV&V identified
operations will be particularly important with respect to         several vulnerabilities with both projects, and the OIG
the plan to have the Secure Production Facility (SPF) fully       recommended that management strengthen controls
operational by April 2008. Accomplishing such a mile-             that would help mitigate risks associated with those vul-
stone would require execution of a plan designed to hire,         nerabilities. Management concurred with each recom-
train, and place on site 50 personnel who can staff the SPF       mendation and proposed responsive corrective actions.
by March 1, 2008. As of the end of this reporting period,         IV&V efforts for the second release of Oracle—including
28 personnel have been hired and reported for duty at the         implementations related to inventory and procurement—
SPF and are being trained. Additional hiring and training         were ongoing during this reporting period.
will continue through the next reporting period.                        The OIG also continues to oversee activities of KPMG
      GPO is also committed to having an Agency work-             LLP (KPMG), the Independent Public Accountant (IPA)
force that is diverse. The Agency has a goal of attracting,       conducting the annual financial statement audit. During
hiring, developing, and retaining a quality diverse work-         this period, KPMG completed its audit of the FY 2007
force. During this reporting period, we initiated an audit        financial statement for which the Agency again received
at the request of Congress to review GPO diversity pro-           an unqualified opinion. The OIG and KPMG are planning
grams, particularly those related to establishing a more          for the FY 2008 audit.
diverse population in senior leadership positions.
      The resu lts f rom t he GPO Employee Sur vey                4. Continuity of Operations (COOP). A previous OIG
released in 2006 show that while job satisfaction is rel-         review of the GPO COOP planning revealed that the
atively high, “communications at GPO” stands out as               Agency may not be adequately prepared to deal with a
not having improved since 2004. When compared to                  significant event such as a natural or man-made disaster.
results from the 2004 Federal Human Capital Survey,               Our report contains several recommendations includ-
GPO actually rated lower in almost all identical items.           ing, most fundamentally, that GPO adopt planning
Human Capital has, however, developed a plan that                 requirements and critical elements identified in Federal
addresses those and other challenges as well as pro-              Preparedness Circular 65, “Federal Executive Branch
vides opportunities for improving communications at               Continuity of Operations.” Management must address
GPO. Improving communications at GPO will require                 the problem of continuing its essential functions and be
ongoing support from management.                                  able to resume normal operations within a time frame
                                                                  acceptable to its customers and business partners.
3. Improved Financial Management. GPO has been                          In response to our recommendations, GPO developed
migrating current business, operational, and financial sys-       a comprehensive draft COOP plan based on the Federal
tems, including associated work processes, to an integrated       Emergency Management Agency template of key COOP
system of Oracle enterprise software and applications. The        components. The draft plan discusses issues such as essen-
new system will provide GPO with integrated and flexible          tial functions, interoperable communications, delega-
tools that will help successfully support business growth         tions of authority and testing, training, and exercises. The


                                       Semiannual Report to Congress
                                                              8
Agency also developed an Occupant Emergency Plan (OEP)
as a companion to its COOP. The OEP presents appropriate
responses for emergencies and discusses known or antici-
pated categories of emergencies.
      Further steps that will enhance the Agency’s COOP
posture were taken during this reporting period, includ-
ing planning and conducting exercises with scenarios that
tested alternate production facilities and procedures for
notifying essential personnel. The Agency is in the process
of preparing a COOP project completion matrix that will
demonstrate what GPO can do to support mission essen-
tial functions in the event of COOP activation.

5. Internal Controls. GPO management establishes and                 Agency’s future direction. Since our last report, GPO
maintains a system of internal controls for effective                officially became a provider of Secure Federal e‑Cre-
and efficient operations, reliable financial reporting,              dentials. SID made that possible by reaching two criti-
and compliance with applicable laws and regulations.                 cal milestones. First, SID established live secure e‑Cre-
Practically every OIG audit includes an assessment of a              dential production capability. It reviewed Request for
program, activity, or function’s applicable control struc-           Proposal (RFP) responses and selected an experienced
ture. Several ongoing audits of GPO activities are assess-           integrator that could provide a turnkey solution, includ-
ing internal controls.                                               ing all necessary equipment, systems, and technical sup-
      The annual financial statement audit that KPMG                 port services. The system configured for GPO enables
conducts also addresses internal control issues and pro-             the Agency to offer a broad range of e‑Credential capa-
vides management with recommended corrective actions.                bilities. Second, the Department of Homeland Security
Although management recognizes the need for improving                submitted a Standard Form-1, “Printing and Binding
the internal control environment to successfully imple-              Requisition,” to GPO for hundreds of thousands of secure
ment its strategic vision and planned future initiatives,            Trusted Traveler Cards.
Agency action is important because of the implementa-                      Although showing progress in meeting unprece-
tion of Statement on Auditing Standards (SAS) No. 112,               dented demand from the Department of State, produc-
“Communicating Internal Control Related Matters                      ing blank passports remains a significant concern from a
Identified in an Audit.” SAS No. 112 establishes standards           security and quality assurance standpoint. The OIG will
and provides guidance on communicating matters related               remain diligent in reviewing passport-related matters
to an entity’s internal control over financial reporting iden-       and has dedicated a Supervisory Auditor to review sev-
tified in a financial statement audit. The standard requires         eral issues during upcoming reporting periods.
that the auditor communicate control deficiencies that are                 Although other concerns received attention, sev-
“significant deficiencies” and “material weaknesses.”                eral matters must continue as a priority for manage-
      During this reporting period, KPMG completed its               ment. Although GPO and the Department of State
audit of GPO’s FY 2007 financial statements. KPMG’s                  finalized a Memorandum of Understanding during
review of the internal control over financial report-                this reporting period, management needs to address
ing resulted in several deficiencies including (1) cer-              technology as well as data security related to the elec-
tain reconciliation controls should be improved, (2) in              tronic passport, inventory volume, and storage of blank
two instances there was a misapplication of generally                passport books. Although we note progress regarding
accepted accounting principles, and (3) IT general con-              certain COOP vulnerabilities, several COOP-related
trols should be improved. KPMG did not consider any of               issues still need to be addressed, and the OIG will
those deficiencies as material weaknesses.                           continue to focus on several issues during upcoming
                                                                     reporting periods.
6. Security and Intelligent Documents (SID). Management                    GPO also faces the challenge of deploying its own
regards SID as the business unit that best exemplifies the           Homeland Security Presidential Directive 12 (HSPD-12)


                                            Office of Inspector General
                                                                 9
infrastructure and issuance of identity credentials to            on Printing (JCP) expressed concerns to GPO man-
employees and contractors. While not legally required             agement that apparently stem from late deliveries of
to comply with HSPD-12, we continue to recommend                  printed versions of legislative documents the House of
that the agency strive towards voluntary compliance.              Representatives and Senate require. Reported reasons
To that end, several control objectives are critical for          for the late deliveries included changes in staffing, reor-
meeting the security, efficiency, fraud prevention, and           ganization of the workforce, use of use-or-lose leave
privacy protection goals HSPD-12 requires and must                during critical times, and various IT matters. During
be maintained throughout the lifecycle of deployment.             this reporting period, management improved automa-
Whatever the Agency’s intentions, it should employ                tion and data back-up and established specific hiring
the best practices established by HSPD-12 and begin               policies resulting in manning levels that have allowed
to address several of the control objectives, including           Plant Operations to consistently produce and deliver
separating duties for registering and issuing creden-             congressional products. The OIG will continue to moni-
tials; using original identity source documents; using            tor the situation to make sure GPO continues meeting
appropriate background investigations; and, using                 the demands of congressional printing.
smart cards as person-identity-verification creden-
tials. The OIG will continue to monitor Agency efforts            8. Information Technology and Systems (IT&S)
regarding internal deployment of HSPD-12 and conduct              Management. As GPO transforms from an ink-on-paper
audits as necessary to ensure compliance with Federal             operation to a highly secure multimedia digital dissem-
Information Processing Standards (FIPS) Publication               ination environment, management of the Agency’s IT
201 (FIPS-201), “Personal Identify Verification of Federal        resources is critical to the success of its vision and mis-
Employees and Contractors.”                                       sion. Acquisition, implementation, and sustainment
                                                                  of engineering issues associated with IT&S, including
7. Supporting Congressional Printing. In a previous               security issues, provide GPO with new and emerging
reporting period, we noted that the Joint Committee               management challenges.


                                      Semiannual Report to Congress
                                                             10
      Noteworthy challenges for the IT&S function                     to lead IV&V activities associated with the ongoing
include establishing a top level Enterprise Architecture              implementation of the Oracle financial management
and support for a number of significant initiatives,                  system and implementation of FDsys.
including FDsys, e‑Passpor t system, Public Key
Infrastructure (PKI), network management, and imple-                  9. Customer Service. As it moves closer to its goal of trans-
mentation of the Oracle financial management system.                  forming to a 21st Century information processing and
To create a plan that will help mitigate risks for GPO on             dissemination operation, GPO’s customer services must
aging legacy systems, IT&S initiated an analysis of leg-              reflect and advance that transformation. To ensure success
acy applications and its impact on business operations.               in the future, management must maintain the appropri-
Legacy systems increasingly inhibit Agency ability to                 ate focus, staffing, and alignment with its Strategic Vision.
respond to customer needs and must be replaced.                       The culture and focus of customer service efforts must
      In addition, because GPO provides services to                   reflect a new way of thinking, and customers should come
executive branch agencies who must comply with the                    to GPO because they want to—not because they must.
Federal Information Security Management Act of 2002                   Transformation of the traditional GPO customer relation-
(FISMA), GPO chose to substantially comply with the                   ship requires a continuing evolution toward state-of-the-
principles of the Act. Complying with FISMA presents                  art customer relations management.
additional challenges for IT&S, including protecting
sensitive Agency and personal data. During FY 2007,                   10. Acquisition. GPO is implementing a phase of its
the OIG conducted an assessment of GPO compliance                     new FDsys, which is envisioned as a world-class sys-
with FISMA to identify any gaps and deficiencies in the               tem capable of preserving and providing permanent
Agency’s overall information security program as well                 public access to information published by the Federal
as critical Agency systems. We will conduct a follow-                 Government. Successful acquisition and implementa-
on FISMA assessment in FY 2008. We also conducted                     tion of the approximate $29 million system is critical to
the annual assessment of the GPO enterprise network                   the Agency’s future as a 21st Century information pro-
infrastructure to evaluate the level of security controls             cessing and dissemination operation.
in place that help protect IT resources from unauthor-                      The OIG is conducting FDsys IV&V activities.
ized access and compromise.                                           IV&V activities will determine whether system imple-
      As the Agency fulfills its mission in the vital arena           mentation is consistent with the FDsys project and
of electronic information dissemination and e‑Govern-                 cost plan, and whether the delivered system meets
ment, GPO established a PKI that will serve the needs                 GPO requirements. The first report on IV&V efforts
of the Agency, its legislative branch partners, and other             identified several weaknesses that if not promptly
Federal partners. 2 The PKI is cross-certified with the               addressed, could lead to schedule risk and cost over-
Federal Bridge Certificate Authority—a substantial and                runs for Release 1.C of FDsys. Release 1.C is the public
necessary step toward using PKI for the benefit of a vari-            release of the system. Weaknesses in the implementa-
ety of customers. PKI will serve as an important con-                 tion included (1) insufficient use of earned value anal-
tributor for future revenue-generating activities within              ysis, (2) lack of an Integrated Baseline Review, (3) risks
GPO. To partially meet PKI certification provisions,                  associated with testing, (4) lack of system capabilities
the OIG conducts periodic compliance reviews that                     documentation, and (5) insufficient Configuration
determine whether assertions related to the adequacy                  Management Plan.
and effectiveness of the controls over its PKI Certificate                  The OIG continues to be concerned w ith the
Authority operations are fairly stated based on underly-              Agency’s ability to efficiently and effectively acquire
ing principles and evaluation criteria.                               the high-technology goods and services necessary for
      Finally, as identified in Management Challenge 3                transforming the Agency. Acquisitions such as FDsys
and Management Challenge 10, the OIG will continue                    require a professionally trained contracting workforce
                                                                      skilled at carrying out nontraditional acquisitions. As
2
    PKI ensures the highest level of protection for electronic
                                                                      such, organizational and staffing issues confronting
information that travels over ordinary, nonsecure networks            the Agency remain a significant challenge.
by encrypting information.


                                              Office of Inspector General
                                                                 11
Office of Audits and Inspections                                     to as the demilitarized zone, or DMZ. We determined
                                                                     whether GPO (1) maintained a robust and effective



T
          he Office of Audits and Inspections (OAI) as               vulnerability scanning and management program
          required by the IG Act, conducts independent               that identified and circumvented common internal
          and objective performance and financial audits             and external threats to its network, (2) used pass-
relating to GPO operations and programs, and oversees                words in the DMZ strong enough to prevent brute
the annual financial statement audit. OAI also conducts              force attacks, and (3) patched systems in the DMZ in
short-term inspections and assessments of GPO activities             a timely and effective manner.
that generally focus on issues limited in scope and time.                  The audit team found that there was room for
All OIG audits are performed in accordance with gener-               improvement and recommended ways that would not
ally accepted government auditing standards (GAGAS)                  only help strengthen security of the publicly available
that the Comptroller General of the United States issues.            network resources but also reduce the risk of system
When requested, OAI also provides accounting and                     compromise and loss of availability. Management
auditing assistance to the OIG Office of Investigations              concurred with each recommendation and is taking
(OI) for both civil and criminal investigations. OAI refers          corrective action.
to OI for investigative consideration any irregularities or
suspicious conduct detected during audits, inspections,            2. Audit Report 08-02
or assessments.                                                        (Issued November 19, 2007)
                                                                     Report on the Consolidated Financial Statement
A. Summary of Audit and
                                                                     Audit of the Government Printing Office for Fiscal
Inspection Activity
                                                                     Years (FY) Ended September 30, 2007 and 2006
During this reporting period, OAI issued six new audit
and assessment reports. Those 6 reports contained 35 rec-            Federal law requires that GPO obtain an indepen-
ommendations for improving GPO operations, including                 dent annual audit of its financial statements, which
strengthening internal controls throughout the Agency.               the OIG oversees. KPMG conducted the FY 2007 audit
OAI continued its work with management to close open                 under a multiyear contract for which OAI served as
recommendations carried over from previous report-                   the Contracting Officer’s Technical Representative
ing periods. GPO management took actions to close 16                 (COTR). The oversight ensured that the audit com-
open recommendations during the reporting period. As of              plied with generally accepted government auditing
March 31, 2008, 31 recommendations were still open.                  standards. OAI also assisted with facilitating the
                                                                     external auditor’s work as well as reviewing work
B. Audit Accomplishments –                                           performed. In addition, OAI provided administra-
Audit and Inspection Reports                                         tive support to the KPMG auditors and coordinated
1. A
    ssessment Report 08-01                                          the audit with GPO management.
   (Issued November 1, 2007)                                               KPMG issued an unqualified opinion on the GPO
                                                                     FY 2007 consolidated financial statements, stating
  GPO Network Vulnerability Assessment
                                                                     that the Agency’s financial statements were presented
   he OIG completed a vulnerability assessment of the
  T                                                                  fairly, in all material respects, in conformity with gen-
  GPO enterprise network infrastructure and evaluated                erally accepted accounting principles. KPMG iden-
  the level of security controls in place that help protect          tified the following significant deficiencies, which
  the Agency’s IT resources from unauthorized access                 KPMG did not consider to be material weaknesses: (1)
  and compromise. We used vulnerability scanning                     certain reconciliation controls need improvement;
  tools, which the OIG selected and the IT&S Security                (2) generally accepted accounting principles were mis-
  Division approved. We limited our assessment to the                applied in two nonroutine transactions; and (3) general
  area between GPO’s Internet service provider and                   controls for IT need improving. KPMG made recom-
  the outermost firewall interface where the Agency’s                mendations that address each condition. Management
  publicly available network resources, such as GPO                  concurred with the recommendations and has either
  Access, are hosted. That area is commonly referred                 planned or initiated responsive corrective action.


                                          Office of Inspector General
                                                              13
3. Audit Report 08-03                                              ■	 The posting of purchases charged to Account 6612
    (Issued January 28, 2008)                                         was not consistently performed throughout the
                                                                      fiscal year.
  GPO General Ledger Account 6612,
  General Expense – Supplies
                                                                         The recommendations we made to management
  GPO policy requires that all expenditure transactions             should, if implemented, not only improve manage-
  are categorized by object class. Department officials             ment controls over the appropriateness of purchase
  use General Ledger Account 6612, General Expense                  transactions posted to Account 6612 but also help
  – Supplies (Account 6612), or Object Class 26.11,                 properly classify, reconcile, and post future purchase
  “General and Administrative Supplies and Materials,”              transactions as well as comply with applicable GPO
  to record purchases of general supplies and expenses.             instructions and procedures. Management concurred
  That account also includes administrative and general             with each recommendation and implemented changes
  office supplies, furniture, uniforms, and other sup-              before the end of this reporting period.
  plies and materials not used in the production process.
  Purchases classified as Account 6612 are made with              4. Assessment Report 08-04
  either a GPO purchase card or through the Agency’s                  (Issued March 28, 2008)
  Materials Management Procurement and Control
  System II (MMPCS II). Beginning in FY 2002, the bal-              Federal Digital System (FDsys) Independent
  ance for Account 6612 fluctuated from $6.2 million to             Verification and Validation (IV&V) – First Quarter
  a high of $7.2 million in FY 2004 and decreased to $4.7           Observations and Recommendations
  million in both FYs 2005 and 2006.                                The FDsys program is a multimillion dollar effort that
        An OIG audit evaluated the appropriateness of               GPO is funding and managing to modernize the GPO
  transactions within Account 6612 to (1) determine                 information collection, processing, and dissemina-
  whether GPO implemented appropriate management                    tion capabilities it performs for the three branches of
  controls over transactions charged to the account;                the Federal Government. The OIG is conducting IV&V
  (2) evaluate the effectiveness of the procedures used to          of FDsys implementation through a contract with
  reconcile the account; and (3) determine whether use              an IT company. The OIG tasked the contractor with
  of the account complies with applicable laws and regu-            assessing the state of program management, techni-
  lations. The audit found that controls were not always            cal, and testing plans and other efforts related to the
  effective over purchase transactions within Account               public release of FDsys. The contractor must report
  6612 that were made in the first 6 months of FY 2006.             to the OIG each quarter on the program’s techni-
  Further, controls over transactions charged to Account            cal, schedule, and cost risks as well as requirements
  6612 can be improved to include prompt and timely post-           traceability of those risks and the effectiveness of
  ing and proper reconciling of transactions and ensuring           the program management processes in controlling
  that charges to the account are for items such as sup-            risk avoidance.
  plies and materials as described in GPO’s Object Class                  Between July and September 2007, the contractor
  Instruction. The audit specifically identified that:              completed an initial assessment of the FDsys prime
                                                                    contractor’s program management practices used for
  ■	 Regardless of object class, GPO purchase card                  the Release 1.B pilot system. The goal of that assess-
    transactions were classified as Account 6612, with-             ment was to analyze practices, assess effectiveness,
    out reconciling individual transactions to a specific           and provide potential recommendations for improv-
    department or object class.                                     ing management of the implementation for Release
  ■	 Items such as materials, supplies, equipment, and              1.C—in other words, its public release. The contrac-
    services procured through the MMPCS II were                     tor reviewed the Program Management Plan, Risk
    often incorrectly classified as Account 6612.                   Management Plan, Risk Database, the results of an
  ■	 The Office of Workforce Development, Education,                Independent Risk assessment, several monthly reports
    and Training acquired training for some GPO depart-             and program reviews, variance analysis reports, and
    ments that was not charged to the using organization.           configuration management plans and practices.


                                      Semiannual Report to Congress
                                                             14
       The initial IV&V assessment showed that the
  prime contractor established a strong basis for good
  program management practices for Release 1.B.
  We identified, however, some weaknesses that
  could lead to schedule risk and cost overrun
  for Release 1.C if not addressed soon. Those
  weaknesses included the following areas:

  ■	 Insufficient use of earned value analysis.

  ■	 Lack of an Integrated Baseline Review.

  ■	 Incomplete adherence to risk management program.

  ■	 Risks associated with testing.

  ■	 Lack of system capabilities documentation.

  ■	 Insufficient Configuration Management Plan.
                                                                     alternate facility for passport production since 2005
                                                                     and believes that the site selected in Mississippi more
       After issuing the draft report, GPO changed some
                                                                     than meets the requirements. The report states that
  aspects of the FDsys program to include assuming pro-
                                                                     nothing has come to OIG attention indicating that
  gram control. However, our original findings and rec-
                                                                     the SPF will not operate as planned and provide the
  ommendations are still applicable, and management
                                                                     Agency a second source for producing U.S. passports.
  responded based on the new plan for the FDsys program.
                                                                     However, while evaluating the planning for the proj-
  The report contains 14 recommendations designed
                                                                     ect, we found that because of time constraints and
  to strengthen management of the FDsys program.
                                                                     other factors (some of which according to manage-
  Management’s corrective actions were responsive.
                                                                     ment were beyond their control), GPO did not imple-
                                                                     ment several of the formal and standard project man-
5. Audit Report 08-05 (Issued March 28, 2008)
                                                                     agement tasks GAO, the Office of Management and
  Planning for GPO’s Secure Production Facility                      Budget, and various executive branch project man-
                                                                     agement guidelines recommend. We found that before
  GPO is the sole source for producing, storing, and deliver-
                                                                     project commencement:
  ing U.S. passports for the Department of State. GPO pro-
  duces those passports at a facility in Washington, D.C. To
                                                                     ■	 Although  GPO evaluated alternative sites for the
  meet an increased requirement for passports and ensure
  continued production in case of disruption, an alternate             SPF, it did not perform a comprehensive alterna-
  production facility is needed. GPO is in the process of              tives analysis to render support for its selection of
  establishing such a facility in Mississippi. That facility,          the SPF location.
  which GPO calls the Secure Production Facility (SPF), is           ■	 GPO did not prepare a formal project charter.

  planned to be up and running in April 2008, at an esti-            ■	 GPO did not develop a project plan, risk manage-
  mated cost of $41.4 million. The OIG performed an audit              ment plan, or acquisition plan.
  that evaluated planning for the SPF to determine if plan-
  ning sufficiently ensured that the SPF would be delivered               Except for acquisition planning, GPO was not
  on schedule, meet GPO requirements and needs, and                  required by any Federal law or regulation to follow
  meet requirements for applicable Federal facilities.               the recommended tasks. However, those tasks are
        The audit revealed that the SPF Team did a com-              considered to be best practices for use by Federal
  mendable job in a relatively short time of organiz-                agencies in conducting facility acquisition projects.
  ing the project, identifying and documenting project               Therefore, we urged GPO to incorporate the tasks
  requirements, and developing implementation plans                  to the extent possible for the remainder of the SPF
  and acquisition strategies to ensure the project met               implementation project to help deliver the project on
  its objectives. The OIG has supported the need for an              schedule and within budget. Moreover, the Agency


                                           Office of Inspector General
                                                                15
  should incorporate the tasks and recommendations                  applications such as databases and custom applica-
  herein for future facility acquisition projects.                  tions are vulnerable and could be compromised. The
       We made two recommendations to management                    risk associated with compromise to the operating sys-
  regarding development of formal project documenta-                tems hosting such critical applications could result in
  tion which, if implemented, should deliver the remain-            services being disrupted, sensitive information being
  der of this project, and any future facility acquisition          divulged, or forgery.
  project, on schedule and under budget. Management                       The OIG assessed the security configuration for
  developed an SPF Master Project Plan that contains                selected operating systems that support production
  the formal project documents addressed in our rec-                of passports to determine whether GPO enforces an
  ommendations. Management stated that it will use                  appropriate level of security. The OIG issued a sensi-
  the SPF Master Project Plan along with lessons learned            tive report containing recommendations designed to
  from the SPF as a basis for managing future projects.             not only help strengthen the security of the PPPS but
  We considered management’s actions responsive to                  also reduce the risk of system compromise.
  both recommendations and closed the recommenda-
  tions when we issued the report.                                C. TeamMate Audit Software
                                                                  Implementation
6. Assessment Report 08-06                                       During this reporting period, OAI began implementing
    (Issued March 31, 2008)                                       and using TeamMate software. TeamMate automates the
                                                                  entire workpaper process, including preparation, review,
  Operating System Security for GPO’s Passport
                                                                  report generation, and global issue tracking. OAI will use
  Printing and Production System
                                                                  TeamMate to increase the efficiency and productivity of
  The GPO Passport Printing and Production System                 the entire audit process including risk assessment, sched-
  (PPPS) includes various computer applications and               uling, preparation, review, report generation, and global
  operating systems that support production of the pass-          issue tracking. TeamMate was originally designed by
  ports. The Agency’s Plant Operations Division admin-            Pricewaterhouse Coopers for all types of audits, includ-
  isters PPPS computer applications while its Chief               ing: compliance, contract, controls, efficiency and regu-
  Information Officer (CIO) is responsible for admin-             latory reviews, financial, government, IT, investigations,
  istering PPPS operating systems. If those operating             procedural, and security. During this period, software
  systems are not configured securely, critical computer          installation was completed and the OAI staff trained on




                                      Semiannual Report to Congress
                                                             16
the software. Any OAI audit begun after training will             ■	     Testing – IV&V activities regarding the Design Vali-
use TeamMate.                                                            dation Test Plan and test efforts performed by the
                                                                         implementation team to verify the adequacy and
D. Future Digital System (FDsys) –                                       completeness of testing activities.
Independent Verification and Validation
The FDsys will be a comprehensive information lifecy-                   In Section B, we discuss the results of our first report
cle management system that will ingest, preserve, pro-            resulting from our IV&V efforts, which are ongoing and
vide access to, and deliver content of all three branches         will continue throughout the life of the project.
of the Federal Government. The system is envisioned
as a comprehensive, systematic, and dynamic means of              E. Status of Open Recommendations
preserving electronic content free from dependence on             Management officials made significant progress in
specific hardware and/or software. It will have 6 solution        implementing and closing many of the recommenda-
clusters (Content Management, Content Preservation,               tions identified during previous semiannual reporting
Content Access, Content Delivery, Content Submission,             periods. During this reporting period, GPO manage-
and Infrastructure), which comprise 25 or more func-              ment took actions to close 16 recommendations. For
tional areas. A multiyear, multirelease integration effort        the 31 recommendations still open, a summary of the
will be used to design, procure, develop, integrate, and          finding and recommendations, along with the status of
deploy selected technologies and components of FDsys.             actions for implementing the recommendation and OIG
      During this reporting period, GPO implemented a             comments, follow.
reorganization of the FDsys Program with respect to GPO
and contractor participation and responsibilities. The            1. Assessment Report 06-02
reorganization reduces contractor tasking and increases               (Issued March 28, 2006)
GPO efforts. GPO will manage development, integration,
                                                                       GPO Network Vulnerability Assessment
and deployment of FDsys. A contractor will develop the
actual FDsys software and support procurement and                      Finding
installation of the system hardware.                                   Although GPO has many enterprise network con-
      The OIG is responsible for IV&V work associated                  trols in place, improvements that will strengthen
with developing and implementing FDsys. We con-                        the network security posture are needed. During
tracted with American Systems to conduct the evalu-                    internal testing, we noted several vulnerabilities
ations. American Systems has extensive IV&V expe-                      requiring strengthening of controls. However, no
rience with the Federal sector, and IV&V work will                     critical vulnerabilities were identified during exter-
determine whether system implementation is con-                        nal testing. Although unclassified, we consider the
sistent with the FDsys project plan and cost plan and                  results of the assessment sensitive and are limiting
meets GPO requirements. Additionally, we will moni-                    discussion of its findings. Further details regard-
tor development and program management practices                       ing assessment findings can be obtained by con-
and processes to anticipate potential issues. Specific                 tacting the OIG.
IV&V tasks include:
                                                                       Recommendation
                                                                       The OIG made four recommendations that should
■	   Program Management – IV&V activities regarding
                                                                       strengthen internal controls associated with the
     the cost, schedule, and risk associated with develop-
                                                                       GPO enterprise network. Those recommendations
     ment and implementation in order to evaluate over-
                                                                       should reduce the risk of compromise to GPO data
     all program management effectiveness.
                                                                       and systems. Based on corrective action manage-
■	   Technical – IV&V activities regarding the resources,
                                                                       ment took, we closed one recommendation when
     system requirements, architecture and design doc-
                                                                       the final report was issued.
     uments, and other critical deliverables associated
     with FDsys development and implementation.                        Management Comments
                                                                       Management concurred with each of the report’s
                                                                       recommendations and initiated corrective action.


                                         Office of Inspector General
                                                             17
  OIG Comments                                                      Recommendation
  Corrective action for the two open recommenda-                    To help ensure the Oracle Program meets expectations
  tions is in progress. The OIG is working with man-                of its stakeholders, the OIG made 13 recommendations
  agement and monitoring implementation of the two                  in the areas of staffing, management alignment and
  open recommendations.                                             organizational restructuring, use of performance met-
                                                                    rics, and management of program progress.
2. Assessment Report 06-03
                                                                    Management Comments
    (Issued March 31, 2006)
                                                                    Management concurred with each of the report’s rec-
  GPO Oracle Program Stakeholder Analysis                           ommendations and agreed to take corrective actions
                                                                    throughout the implementation of the project.
  Finding
  The assessment identified several vulnerabilities asso-           OIG Comments
  ciated with the GPO Oracle Program and made recom-                Management provided documentation during this
  mendations that would help mitigate risks associated              reporting period that was sufficient to close two of the
  with those vulnerabilities. The vulnerabilities identified        eight recommendations that remained open from the
  during the assessment included (1) top management                 previous reporting period. Management is continu-
  support not aligned with program execution; (2) inad-             ing to work on implementing corrective actions for the
  equate functional and technical staffing; (3) lack of a           remaining six open recommendations. We anticipate
  methodology for organizational restructuring; (4) lack            during the next reporting period continued progress
  of targeted performance metrics; and (5) lack of an effec-        toward closing the open recommendations.
  tive method for managing program progress.




                                       Semiannual Report to Congress
                                                               18
3. A
    ssessment Report 07-01                                            Recommendation
   (Issued November 20, 2006)                                          The report contains 11 recommendations which,
                                                                       if implemented, will help move GPO toward FISMA
      Report on Early Oracle Implementation:
                                                                       compliance.
      Independent Verification and Validation (IV&V)
                                                                       Management Comments
      Finding
                                                                       Management concurred with each of the recommen-
      The OIG initiated IV&V activities beginning with two
                                                                       dations and proposed corrective actions.
      of the early implementation projects for Oracle. The
      objective of IV&V is to provide GPO with an indepen-             OIG Comments
      dent assessment of project status, satisfaction of user          Management is working on implementing corrective
      needs, and project cost effectiveness. The OIG issued            actions for the open recommendations. As part of the
      a sensitive report summarizing vulnerabilities identi-           2008 FISMA review, we will review management’s prog-
      fied during the IV&V activities.                                 ress for implementing the recommendations.

      Recommendation
                                                                     5. Assessment Report 07-10
      The report includes 21 recommendations to manage-
                                                                         (Issued September 28, 2007)
      ment for strengthening controls and mitigating risks
      associated with the vulnerabilities.                             Report on Perimeter Security Assessment of a
                                                                       GPO Building
      Management Comments
      Management concurred with each of the recommen-                  Finding
      dations and proposed corrective actions.                         The Federal Protective Service (FPS), an organization
                                                                       within the Department of Homeland Security, pro-
      OIG Comments
                                                                       vides law enforcement and security services to the
      A total of 12 of the 21 recommendations were closed
                                                                       General Services Administration for federally owned
      during this reporting period. Management continues
                                                                       and leased facilities. At the request of the OIG, FPS
      to work on implementing corrective actions on the
                                                                       conducted a physical security assessment of a GPO
      nine open recommendations.
                                                                       building. FPS methodology for assessing security in
                                                                       the GPO building included (1) identifying existing
4. A
    ssessment Report 07-09
                                                                       countermeasures at the facility, (2) identifying cred-
   (Issued September 27, 2007)
                                                                       ible threats to the facility, and (3) rating each threat as
      Report on GPO’s Compliance with the                              to potential impact of loss and vulnerability. The sen-
      Federal Information Security Management Act (FISMA)              sitive report contains recommendations intended to
                                                                       enhance security of the building.
      Finding
      FISMA requires that each executive branch agency                 Recommendation
      develop, document, and implement an agency-wide                  The report contains 12 recommendations which, if imple-
      program for providing information security for the               mented, will help enhance security of the building.
      information and information systems that support the
                                                                       Management Comments
      operations and assets of the agency, including those
                                                                       Management concurred with each of the recommen-
      provided or managed by another agency, contractor,
                                                                       dations and proposed corrective actions.
      or other source.3 Although a legislative branch agency,
      the Agency has recognized the need to be FISMA com-              OIG Comments
      pliant because of the services it provides, including            Management closed four of the seven remaining open
      services to executive branch agencies. The OIG issued            recommendations during this reporting period. A total
      a sensitive report concluding that although the Agency           of three recommendations are open. With proposed
      has taken steps to comply with FISMA, additional                 corrective actions in place, we anticipate closing three
      progress is needed to fully comply.                              recommendations during the next reporting period.


3
      Section 3541, title 44, United States Code.

                                                    Office of Inspector General
                                                                19
Semiannual Report to Congress
             20
Office of Investigations



T
         he Office of Investigations (OI) conducts and coor-
         dinates investigations relating to alleged or sus-
         pected misconduct and monetary or material
losses occurring in GPO programs and operations. The
subjects of OI investigations can be contractors, program
participants, management, or other Agency employees.
Special Agents in OI are Federal Criminal Investigators
(general schedule job series 1811). Investigators are also
designated as Special Police Officers. Investigations that
uncover violations of Federal law or GPO rules or regu-
lations may result in administrative sanctions, civil or
criminal prosecution, or both. Prosecutions may result in
court-imposed prison terms, probation, fines, or restitu-
tion. OI can also issue Management Implication Reports,
which identify issues uncovered during an investigation it
believes warrant management’s prompt attention.

A. Summary of Investigative Activity
During this reporting period and in response to 417 com-
plaints or allegations, OI opened 17 investigative cases
and closed 21. Of the investigative matters, 24 are ongo-           Employee Misconduct
ing. During this reporting period, OI issued one admin-             OI investigates allegations involving GPO employee
istrative subpoena and one mail cover request during                misconduct. Allegations generally include misuse of
investigative efforts.                                              Government computers, theft, assaults, drug violations,
                                                                    gambling, kickbacks, and travel voucher fraud. OI has 11
B. Types of Cases                                                   open investigations involving misconduct.
OI investigative workload includes the following
major categories:                                                   Miscellaneous
                                                                    OI investigates miscellaneous administrative allegations
Workers’ Compensation Fraud                                         and other types of investigations that do not fall into one
OI investigates GPO employees who allegedly submit                  of the categories above. Examples of such investigations
false claims or make false statements to receive workers’           include theft of Government property, illegal hacking, or
compensation benefits under the Department of Labor’s               request for investigations by other legislative agencies. OI
Office of Workers’ Compensation Programs (OWCP). We                 has seven open cases involving miscellaneous matters.
are working on four investigations involving alleged work-
ers’ compensation fraud.                                            C. Status of Action on Referrals
                                                                    OI investigative efforts result in both external and
Procurement Fraud                                                   internal referrals for action.
OI investigates allegations involving GPO contract ser-
vice providers defrauding the Government in con-                    External
nection with GPO procurement of goods and services.                 OI referred five investigative matters to the Department
Violations generally include false claims, false state-             of Justice for prosecution. Prosecutorial action is pend-
ments, wire and mail fraud, product substitution, and               ing in two civil and three criminal matters.
Small Disadvantaged Business Program violations. OI
has two open cases involving procurement fraud.



                                           Office of Inspector General
                                                               21
Internal                                                              contractor is alleged to have filed false claims and state-
Three investigative matters were referred to management               ments in connection with contracts valued at approximately
for action and are pending.                                           $438,000. Civil action in this matter could result in fines and
                                                                      restitutions of approximately $1,800,000.
D. Investigative Accomplishments                                             OI investigated a GPO contractor for pre-billing
Management Implication Reports (MIR)                                  before production and submitting false claims. The mat-
During the previous reporting period, OI issued an MIR                ter is pending a U.S. Attorney decision whether to take civil
concerning shipping and storage procedures of one of                  action against the company and company officials. As a
the security materials used to create the passports. As               result of that investigation, an investigation was initiated
a result of damaged shipments GPO received, the OIG                   to determine the extent to which GPO contractors may be
recommended that security and storage procedures                      pre‑billing or submitting false claims prior to the produc-
for the material be strengthened. During this reporting               tion and delivery of customer product.
period, as a result of our recommendations, the Agency
responded and modified its security procedures.                       Miscellaneous
                                                                      OI assisted the Library of Congress OIG in a criminal
Workers’ Compensation Fraud                                           investigation. In addition, at the request of two other
An OI investigation resulted in an OWCP claimant being                legislative agencies, OI is investigating a criminal matter
sent for a second opinion examination by a psychiatrist               accepted by the Department of Justice’s Office of Public
and an orthopedist. Both physicians found that the sub-               Integrity for prosecution and concluded the investigation
ject was able to work with very few restrictions. The sub-            of another matter concerning a GPO employee who was
ject is in vocational rehabilitation to find suitable work. In        on detail to work in Congress.
addition, the subject of the review will then either be
taken from the rolls or given a loss of wages earning                 E. Work-In-Progress
capacity, which will reduce his benefits. Should the indi-            Other significant OI matters are pending as of the end
vidual be taken off the rolls completely, the cost savings            of this reporting period. Disposition and results of those
to the Government would be $44,800 a year ($448,000 in                investigations will be detailed in future reports.
actuary amount over 10 years).
      OI’s continued proactive, investigative approach
and its working relationship with the GPO Health Unit
and the Office of Workers’ Compensation resulted in
keeping Agency Sick Injured Administrative costs under
$20,000 per month.
      A previous reporting period investigation of a GPO
Central Office employee of alleged workers’ compensation
fraud resulted in forfeiture of $34,623.00 of the employee’s
compensation. Final recovery is pending appeal.

Employee Misconduct
An OI investigation involving allegations of the use of a
Government computer to view and download pornogra-
phy was referred to management for action. The employee
could be terminated from GPO employment for violations
of Agency regulations on the use of Government comput-
ers and the Internet.

Procurement Fraud
An OI investigation of a GPO contractor accepted by the
Department of Justice for civil prosecution is pending. The


                                         Semiannual Report to Congress
                                                                 22
Office of Inspector General
            23
APPENDIX A: GLOSSARY AND ACRONYMS

Glossary and Acronyms                                               Material Weakness - A significant deficiency, or combi-
                                                                    nation of significant deficiencies, that results in more than
Glossary                                                            a remote likelihood that a material misstatement of the
                                                                    financial statements will not be prevented or detected.
Allowable Cost - A cost necessary and reasonable for
the proper and efficient administration of a program                Questioned Cost - A cost the IG questions because of
or activity.                                                        an alleged violation of a law, regulation, contract, coop-
                                                                    erative agreement, or other document governing the
Change in Management Decision - An approved change                  expenditure of funds; such cost is not supported by ade-
in the originally agreed-upon corrective action necessary           quate documentation; or the expenditure of funds for
to resolve an IG recommendation.                                    the intended purposes was determined by the IG to be
                                                                    unnecessary or unreasonable.
Disallowed Cost - A questionable cost arising from an IG
audit or inspection that management decides should not              Recommendation - Actions needed to correct or elimi-
be charged to the Government.                                       nate recurrence of the cause(s) of the finding(s) identified
                                                                    by the IG to take advantage of an opportunity.
Disposition - An action that occurs from management’s
full implementation of the agreed-upon corrective action            Resolution - An agreement reached between the IG
and identification of monetary benefits achieved (subject           and management on the corrective action(s) or upon
to IG review and approval).                                         rendering a final management decision by the GPO
                                                                    Resolution Official.
Final Management Decision - A decision rendered
by the GPO Resolution Official when the IG and the                  Resolution Official - The GPO Resolution Official is the
responsible GPO manager are unable to agree on                      Deputy Public Printer.
resolving a recommendation.
                                                                    Resolved Audit/Inspection - A report containing recom-
Finding - Statement of problem identified during an                 mendations that have all been resolved without excep-
audit or inspection typically having a condition, cause,            tion, but have not yet been implemented.
and effect.
                                                                    Significant Deficiency - A significant deficiency is a con-
Follow-up - The process that ensures prompt and respon-             trol deficiency, or combination of control deficiencies,
sive action once resolution is reached on an IG recom-              that adversely affects the entity’s ability to initiate, autho-
mendation.                                                          rize, record, process, or report financial data reliably in
                                                                    accordance with U.S. generally accepted accounting
Funds Put To Better Use - An IG recommendation that                 principles such that there is more than a remote likeli-
funds could be used more efficiently if management took             hood that a misstatement of the financial statements
actions to implement and complete the audit or inspec-              that is more than inconsequential will not be prevented
tion recommendation.                                                or detected by the entity’s internal control over finan-
                                                                    cial reporting.
Management Decision - An agreement between the IG and
management on the actions taken or to be taken to resolve a         Unsupported Costs - Questioned costs not supported by
recommendation. The agreement may include an agreed-                adequate documentation.
upon dollar amount affecting the recommendation and an
estimated completion date unless all corrective action(s) is
completed by the time agreement is reached.



                                        Semiannual Report to Congress
                                                               24
Abbreviations and Acronyms

CCIG	       Council of Counsels to the Inspector General
CIO	        Chief Information Officer
COOP	       Continuity of Operations
COTR	       Contracting Officer’s Technical Representative
DMZ	        Demilitarized Zone
ECIE	       Executive Council on Integrity
            and Efficiency
FDLP	       Federal Depository Library Program
FDsys	      Future Digital System
EEO	        Equal Employment Opportunity
FIPS-201	   Federal Information Processing Standard Publication 201
FISMA	      Federal Information Security Management Act
FPS	        Federal Protective Service
FY	         Fiscal Year
GAGAS	      Generally Accepted Government Auditing Standards
GPO	        U.S. Government Printing Office
GPRA	       Government Performance and Results Act
HSPD-12	    Homeland Security Presidential Directive-12
IG 	        Inspector General
IG Act	     Inspector General Act of 1978
IPA	        Independent Public Accountant
IT	         Information Technology
IT&S	       Information Technology and Systems
IV&V	       Independent Verification and Validation
JCP	        Joint Committee on Printing
LEAP	       Law Enforcement Availability Pay
MIR	        Management Implication Report
MMPCS II	   Materials Management Procurement and Control System
OALC	       Office of Administrative/Legal Counsel
OAI	        Office of Audits and Inspections
OEP	        Occupant Emergency Plan
OI	         Office of Investigations
OIG	        Office of Inspector General
OWCP	       Office of Workers’ Compensation Programs
PCIE	       President’s Council on Integrity and Efficiency
PKI	        Public Key Infrastructure
PPPS	       Passport Printing and Production System
SAS	        Statement on Auditing Standards
SID	        Security and Intelligent Documents
SPF	        Secure Production Facility

                                       Office of Inspector General
                                                      25
APPENDIX B: INSPECTOR GENERAL ACT REPORTING REQUIREMENTS

Inspector General                Requirement Definition                   Cross-Reference
Act Citation                                                              Page Number(s)
 Section 4(a)(2)                  Review of Legislation                   5
                                  and Regulations

 Section 5(a)(1)                  Significant Problems, Abuses,           7–11
                                  and Deficiencies                        13–16

 Section 5(a)(2)                  Recommendations for                     13–16
                                  Corrective Actions                      22

 Section 5(a)(3)                  Prior Audit Recommendations Not         17–19
                                  Yet Implemented

 Section 5(a)(4)                  Matters Referred to                     21
                                  Prosecutorial Authorities

 Section 5(a)(5)                  Summary of Refusals to                  n/a
                                  Provide Information

 Sections 5(a)(6) and 5(a)(7)     OIG Audit and Inspection Reports        13–16
                                  Issued (includes total dollar values
                                  of Questioned Costs, Unsupported
                                  Costs, and Recommendations that
                                  Funds Be Put To Better Use)

 Section 5(a)(8)                  Statistical table showing the total     27
                                  number of audit reports and the total
                                  dollar value of questioned costs

 Section 5(a)(9)                  Statistical table showing the total     28
                                  number of audit reports and the
                                  dollar value of recommendations
                                  that funds be put to better use

 Section 5(a)(10)                 Summary of prior Audit and              n/a
                                  Inspection Reports issued for
                                  which no management decision
                                  has been made

 Section 5(a)(11)                 Description and explanation             n/a
                                  of significant revised
                                  management decision

 Section 5(a)(12)                 Significant management                  n/a
                                  decision with which the IG
                                  is in disagreement




                                Semiannual Report to Congress
                                                    26
APPENDIX C: STATISTICAL REPORTS

Table C-1: Audit Reports With Questioned and Unsupported Costs

                                                                                       	
                                                        Questioned      Unsupported
 Description                                                                           Total
                                                        Costs           Costs



 Reports for which no management decision made by
 beginning of reporting period
                                                        	   $347,247    	   $240,687   	   $587,934




 Reports issued during reporting period                 	        $0     	        $0    	        $0




 Subtotals                                              	   $347,247    	   $240,687   	   $587,934




 Reports for which a management
 decision made during reporting period

 1. Dollar value of disallowed costs                    	        $0     	        $0    	        $0
 2. Dollar value of allowed costs                       	        $0     	        $0    	        $0




 Reports for which no management decision
 made by end of reporting period                        	   $347,247    	   $240,687   	   $587,934




 Reports for which no management decision
 made within 6 months of issuance                       	   $347,247    	   $240,687   	   $587,934




                                          Office of Inspector General
                                                      27
Table C-2: Audit Reports With Recommendations That Funds Be Put to Better Use


                                                                              Funds Put To
 Description                                              Number of Reports
                                                                              Better Use


 Reports for which no management decision made by
                                                          	       0           	       $0
 beginning of reporting period




 Reports issued during the reporting period               	       0           	       $0




 Reports for which a management decision made
 during reporting period                                  	

 ■    ollar value of recommendations agreed to by
     D                                                    	       0	          	       $0
     management
 ■  Dollar value of recommendations not agreed to        	       0           	       $0
     by management




 Reports for which no management decision made
                                                          	       0           	       $0
 by the end of the reporting period




 Report for which no management decision made
                                                          	       0           	       $0
 within 6 months of issuance




                                       Semiannual Report to Congress
                                                     28
Table C-3: List of Audit and Inspection Reports Issued During Reporting Period


 Audit Reports                                                                       Funds Put To Better Use



 Report on GPO Network Vulnerability Assessment
 (Assessment Report 08-01, issued
                                                                                     	      $0
 November 1, 2007)




 Report on the Consolidated Financial Statement Audit of the Government Printing
 Office for Fiscal Years (FY) Ended September 30, 2007 and 2006
                                                                                     	      $0
 (Audit Report 08-02, issued November 19, 2007)




 Report on Audit of GPO General Ledger Account 6612, General Expense – Supplies
 (Audit Report 08-03, issued January 28, 2008)                                       	      $0




 Report on Federal Digital System (FDsys) Independent Verification and Validation
 (IV&V) – First Quarter Observations and Recommendations
                                                                                     	      $0
 (Assessment Report 08-04, issued March 28, 2008)




 Report on Audit of Planning for GPO’s Secure Production Facility
 (Audit Report 08-05, issued March 28, 2008)                                         	      $0




 Report on Assessment of Operating System Security for GPO’s Passport Printing and
 Production System                                                                   	      $0
 (Assessment Report 08-06, issued March 31, 2008)




 Total                                                                               	      $0




                                          Office of Inspector General
                                                            29
Table C-4: Investigations Case Summary



 Total New Hotline/Other Complaints Received during Reporting Period      	   417




 No Formal Investigative Action Required                                  	   400




 Cases Opened by OI during Reporting Period                               	    17




 Cases Open at Beginning of Reporting Period                              	    28




 Cases Closed during Reporting Period                                     	    21




 Cases Open at End of Reporting Period	                                   	    24




 ■    Cases Referred to GPO Management                                    	     5




 ■    Cases Referred to Other Agencies                                    	     1




 ■    Cases Referred to OAI                                               	     0




                                          Semiannual Report to Congress
                                                       30
Current Case Openings by Allegation                                          	24



■ Contract and Procurement Fraud                                            	2          	   8%



■    Employee Misconduct                                                     	11         	 46%



■    Workers’ Compensation Fraud                                             	4          	 17%



■    Miscellaneous                                                           	7          	 29%




                                                                    ■ Contract and Procurement Fraud

                                                                    ■ Employee Misconduct

                                                                    ■ Workers’ Compensation Fraud

                                                                    ■ Miscellaneous




                                      Office of Inspector General
                                                  31
Table C-5: Investigations Productivity Summary

	       Arrests	                                                          0

	       Total Cases Presented to Prosecuting Authorities	                 5

	       Criminal 	                                                        5

	       Criminal Declinations	                                            1

	       Convictions	                                                      0

	       Guilty Pleas	                                                     0

	       Probation (days)	                                                 0

	       Jail Time (days)	                                                 0

	       Restitutions	                                                     $0

	       Civil	                                                             0

	       Civil Declinations	                                                0

	       Amounts Recovered Through
    	   Investigative Efforts	                                            $0

	       Total Agency Cost Savings Through
	       Investigative Efforts	                                            $0

	       Total Administrative Referrals	                                    3

	       Contractor Debarments	                                             0

	       Contractor Suspensions	                                            0

	       Contractor Other Actions	                                          0

	       Employee Suspensions	                                              0

	       Employee Terminations	                                             0

	       Employee Warned/Other Actions	                                     0

	       Other Law Enforcement Agency Referrals	                            0




                                          Semiannual Report to Congress
                                                            32
Office of Inspector General

732 North Capitol Street, NW
Washington, D.C. 20401

202.512.0039
inspectorgeneral@gpo.gov
www.gpo.gov/oig

OIG Hotline 1.800.743.7574
